                                   >If
                                   1'
                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                              ACTION MEMORANDUM

TO:                            I                                FILE NUMBER:        DATE:
AIGI                                                            I01060012           January 16,2002

Subject:

            Physics Department



                                                                 -C-
Action:

On 11JUNO 1(MON) at approximately 0920,                  ((       )) Receptionist, National Science
Foundation ((NSF)), Office of Inspector General ((NSFIOIG)) received a telephone complgnt from Ms
                     (('          1)                ( )            alleging that
..       - -)), Professor, Physics Department,                                          . submitted
                                                                                      4 ,


fraudulent receipts for expenses.

On 1 1JUl\JO 1(MON) ,                           , Special Agent NSF/OIGlINV ((SIA                        1:
interviewed             to obtain background information relative to her initial allegation.
stated that Dr.                 submitted a number of fraudulent receipts, specifically those foi
condominium rentals.utilized by visiting research professors.                 added that on 30JUN01 he]
position as                   will be abolished and she felt that it is a direct result of her questioning
             3s to maqy of the questionable receipts.




COPIES MADE:

            I   PREPARED BY:   I                         CLEARED BY:
SURNAM
E & TITLE       AGENT:   '               ATTORNEY:       SAC:             AlGl
                (




INITIALS
& DATE




                                                            Page 1 of 3
